Report No. DODIG-2013-042               January 31, 2013




           Independent Auditor's Report on the
            DoD FY 2012 Detailed Accounting
              Report of the Funds Obligated
                for National Drug Control
                    Program Activities
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
DASD (CN & GT)                Deputy Assistant Secretary of Defense for Counternarcotics
                               and Global Threats
ONDCP                         Office of National Drug Control Policy
                                 INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500



                                                                          January 31, 2013

MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR
                 COUNTERNARCOTICS AND GLOBAL THREATS

SUBJECT: Independent Auditor’s Report on the DoD FY 2012 Detailed Accounting
         Report of the Funds Obligated for National Drug Control Program Activities
         (Report No. DODIG-2013-042)

Public Law 105-277, title VII, “The Office of National Drug Control Policy
Reauthorization Act of 1998” (the Act), October 21, 1999, requires that DoD annually
submit a detailed report (the Report) to the Director, Office of National Drug Control
Policy (ONDCP), accounting for all funds DoD expended for National Drug Control
Program activities during the previous fiscal year. The Act requires that the DoD
Inspector General authenticate the Report before its submission to the ONDCP Director
(section 1704(d), title 21, United States Code).

The “ONDCP Circular: Drug Control Accounting,” May 1, 2007, (the “Drug Control
Accounting” Circular) provides the policies and procedures DoD must use to prepare the
Report and authenticate the DoD funds expended on National Drug Control Program
activities. The “Drug Control Accounting” Circular specifies that the Report must
contain a table of prior-year drug control obligations, listed by functional area, and
include assertions relating to the obligation data presented in the table.

The Deputy Assistant Secretary of Defense for Counternarcotics and Global Threats
(DASD [CN & GT]) was responsible for the detailed accounting of funds obligated and
expended by DoD for the National Drug Control Program for FY 2012. We have
reviewed the DASD (CN & GT) detailed accounting in accordance with the attestation
standards established by the American Institute of Certified Public Accountants and in
compliance with generally accepted government auditing standards. We performed a
review-level attestation, which is substantially less in scope than an examination done to
express an opinion on the subject matter. Accordingly, we do not express an opinion.

We reviewed five DoD reprogramming actions that allocated $1.64 billion among the
Military Departments, National Guard, and Defense agencies. We reviewed the year-end
obligation report and determined that DASD (CN & GT) allocated the funds to
appropriations and project codes intended for the DoD Counterdrug Program.

In a letter dated December 12, 2012, DASD (CN & GT) provided us the Report, which
we reviewed to determine compliance with the “Drug Control Accounting” Circular. The
detailed accounting indicated that during FY 2012, DoD obligated $1.50 billion to the
Counterdrug Program functional areas. DASD (CN & GT) compiled the Report from
data the Military Departments and other DoD Components submitted.
DASD (CN & GT) initially reprogrammed the funds from the Central Transfer Account
to the DoD Components using project codes. The DoD Components provided year-end
obligation data to DASD (CN & GT) through the DASD CN database, which compiled
the data into one obligation report. In order to present the obligations by functional area
as required by the "Drug Control Accounting" Circular, DASD (CN & GT) applied
percentages to each project code in the consolidated report to compute the amounts
presented in the table of obligations, instead of obtaining the information directly from
the accounting systems.

Based on our review, except for the DASD (CN & GT) use of percentages to calculate
the obligations presented by functional area, nothing came to our attention during the
review that caused us to believe the detailed accounting of funds obligated by DoD on the
National Drug Control Program for FY 2012 is not presented fairly, in all material
respects, in conformity with the "Drug Control Accounting" Circular.

This report is intended solely for the information and use ofDASD (CN & GT) and
ONDCP and is not intended to be and should not be used by anyone else. However, this
report is a matter of public record, and its distribution is not limited.




                                              LorinT. Venable, CPA
                                              Acting Assistant Inspector General
                                              DoD Payments and Accounting Operations




                                             2
                         OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                           2500 DEFENSE PENTAGON
                                          WASHINGTON , D.C. 20301 -2500




                                                                          DEC 1 2 2012
 SPECIAL OPERATIONS/
LOW-INTENSITY CONFLICT




       Ms. Jane Sanville
       Acting Associate Director
       Performance and Budget
       Office ofNational Drug Control Policy
       750 1ih Street, NW
       Room 535
       Washington, DC 20503

       Dear Ms. Sanville:

             The drug methodology used to calculate obligations by drug control function of Fiscal
       Year 2012 budgetary resources is reasonable and accurate. The obligation table in Tab A
       was generated by the methodology as reflected in Tab B. The obligations are associated
       with a financial plan that properly reflects all changes made during the fiscal year. The
       Counternarcotics Central Transfer Account does not receive Fund Control Notices.

            Performance Reporting will be addressed under separate correspondence. My point
       of contact for this action is                            , ~via.



                                                     aryn      Hci
                                                    Dep y ssistant Secretary of Defense
                                                    Counternarcotics and Global Threats




       Enclosures:
       As stated

       CF:
       DO DIG
